U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

December 9, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Employer Solutions Staffing Group, LLC, et al. v. Eugene Scalia,
Secretary of Labor, S.Ct. No. 20-660

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 9,
2020, and placed on the docket on November 13, 2020. The government’s response is due on
December 14, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including January 13, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0660
EMPLOYER SOLUTIONS STAFFING GROUP, LLC,
ET AL.
EUGENE SCALIA, SEC. OF LABOR

REBECCA J. LEVINE
REBECCA LEVINE LAW PLLC
5200 WILLSON ROAD
SUITE 150
EDINA, MN 55424
952-836-2711
RLEVINE@REBECCALEVINELAW.COM

